                                             NATIONAL SCIENCE FOUNDATION
                                              OFFICE OF INSPECTOR GENERAL
                                                OFFICE OF INVESTIGATIONS

                                        CLOSEOUT MEMORANDUM

11 TO: AIGI I File Number: I96060036                                              I Date: 15 March 2002
11   Subject: Closeout Memo                                                       1           Page 1 of 1


          There was no closeout written at the time this case was closed. The following information was
          extracted from the file in conformance with standard closeout documents.

          Our office was informed that the subject' was alleged to have committed embezzlement, theft, or
          diversion of grant funds. An auditor2alleged that the subject submitted petty cash receipts charged
          to her NSF grant. The subject's institution credited $4,463.50 to the NSF grant account on June 30,
          1996. Subsequently, the subject pleaded guilty and agreed to pay full restitution.

          Accordingly this case is closed.




11               I   Prepared by:   (                Cleared by:                 11
       Internal Audit Department


                                                                                                                        July 2, 1996

  National Science Foundation/OIG
  4201 Wilson Road, Suite 1135
  Arlington, VA. 22230
  Attention:
   Dear
  Further to our telephone conversation of Tuesday, June 25, 1996,
  attached is a copy of an audit report issued March 29, 1996 on an
  embezzlement at our Center for Education.
 As a matter of information,       :' . ,.: was indicted by a     --

 County Grand Jury on May 21, 1996, arrested and bonded out. A
 trial is scheduled for July 12, 1996.                 has agreed to
 restitution of $54,697.87 per the attached schedule dated May 20,
 1996.
 The National Science Foundation grant account at the Center for
 Education was credited $4,463.50 as of June 30, 1996.        An
 appropriate amount of overhead will also be credited.
  Should you have any questions, please telephone me.
 Sincerely,
  \
                    /


 't'

"DireEtor of Internal Audit




                                                                                                                              k d s o \ 7-d-qb
                                   . -.Internal Audit Department - ,   i . . ;'..:   .,   .   .   ,,   3   ..   ,   ,   ,
                                               Center for ducat ion
                                               Loss on Submission of invalid receipts




                                                                 Charged to         Charged to
                                                                       Fdn.         NSF Grant       ~ b i aCharges
                                                                                                           l

Recap of Losses



                      Submitted complete originals
                         items not considered valid                   2,469.41                            2,469.41
                      Submitted cut off altered originals               144.94                              144.94
                      Submitted cut off altered blue copies          23,514.85           4,160.45        27,675.30
                      Submitted on Xerox of statement                   379.00             303.05           682.05
          .(     1,
                                                                      3,928.99                            3,928.99
          .                                                                                  .
                  i-
                                                              . .       900.00           .                  900.00
                                                                      5,149.00                            5,149.00
                                                                     11,401.85                           11,401.85
 -   -I   9, -                                                        1,674.00                            1,674.00
Other Vendors (xerox of stmnt. & charge card)                           558.33                              558.33
Teacher reimbursements not recorded                                     114.00                              114.00
         Total Embezzlement                                          50,234.37          4,463.50         54,697.87
 Internal Audit Department




                                                                      Date: March 29, 1996



To:


Attached is a report on an embezzlement of $58,119.47 at the Center For Education's .
         Laboratory. In addition $1,363.93 in overhead related to some of the fraudulent
expenditures was charged to the National Science Foundation and must be resolved. The
investigation discovered submissions of petty cash and check requests with altered receipts as
support for the expenditure. Also, purchase orders were used to obtain items that were not for
use in the                Laboratory and could not be located during an inventory.


Ou~ecommendatio*sto strengthen internal controls are included in this report.




C: Audit Committee




                             , Ex-officio
                      AUDIT REPORT - CENTER M)R EDUCATION
                                         LABORATORY



OVERVIEW


The                   Humanities Division includes the Center for Education under the
codirection of professors                 and :           In conjunction with the
                                                                               - - - .
            School District .      . , the Center for Education operates a

Laboratory off campus at the        Middle School. The Laboratory is under the direction of
Professor                   and is staffed by three             _ employees at the
Middle School. The Site Manager was              .d




The Center For Education also employed a Program Assistant,                , the grandmother
of          . .          was housed on the       campus. Human Resources documented this
f d a l relationship in September 1994 and notified the Center for Education. Human
Resources was assured by                that the individuals worked in separate locations and
would have minimal interaction.                                      ... .
                                                                        ..




The purpose of the Laboratory is to enhance science teaching in the        schools by providing    ,
teachers a variety of learning experiences including science course work, mentorships in science   ?
labs in the community and pedagogical training. One aspect is to utilize computers and other
technology in the classroom. The            -
                                           . .     Laboratory is funded by gifts from the
Foundation with additional support from a National Science Foundation grant under the direction
of

The      I  -- 1     Laboratory has a $200 petty cash fund provided by
       vas the custodian of the petty cash fund.              was also authorized to approve
purchase orders and invoices for the              Laboratory up to $1,000. This authorization
went into effect July 8, 1993.

On December 7, 1995 a petty cash replenishment of $1,532 was made. At that time, the
Director of Internal Audit was in the Cashier's Office. The Cashier showed the receipts
supporting the replenishment to the Auditor since the amount requested was well in excess of
the $200 fund and this seemed unusual to the Cashier. The Cashier also commented that prior
replenishments were unusual due to the large dollar amount. The Auditor immediately noticed
the receipts were altered. The top portion of the receipt was cut-off thereby eliminating
pertinent information such as date, reference number and customer name. The Auditor
immediately launched an intensive investigation of petty cash replenishment for the
        Laboratory, as well as disbursements made on check requests and purchase orders.
                    -
AUDIT REPORT CENTEX FUR EDUCATION                                                       Page 2
The investigation uncovered submissions of altered receipts paid through petty cash and check
requests. Also, purchase orders were issued for items that were not for use in the .
       t Laboratory and could not be located during an inventory conducted by
Many of the receiving reports for these purchase orders were authorized by the Program
Assistant,            , who admitted that she had not witnessed or verified delivery of the
equipment, thereby c&cumventing one of the basic controls provided for in the University's
purchasing policy.

The investigation resulted in the termination of           and the resignation of

The following is a detailed report of audit findings and recommendations:

AUDIT F'INDING

1. PE'ITY CASH DISBURSEMEWIS
       We reviewed petty cash transactions for the ,   .            : Laboratory starting in
       October 1994 through December 1995. The transactions were charged to the
       Foundation Gift account and to the National Science Foundation Grant account for use
       by the --,,   ,
                     ,
                     ,,
                      ,     Laboratory.
                                                                                                  .
      We determined there were 304 altered receipts after June 1995 supporting 71 petty cash
      replenishment transmittals totaling $23,163.28.                   submitted these altered
      receipts for reimbursement from        . ---. ---- r's petty cash. The majority of these
      fraudulent transactions occurred primarily from September 1995 to December 1995.
      The receipts represented documents obtained fiom a local computer store,
      The upper portion of the supporting documents was cut-off to conceal pertinent
      information such as date, invoice reference and customer name. With the assistance of
      the - ---- - ------ management, we learned the invoices submitted by                were
      actually either quotations or duplicates of original invoices issued to various
             :customers and employees with no m a t i o n to                    Although
              uses white paper for original invoices and blue for copies, the blue copy is not
      labeled "duplicatew.Since only                  employees can produce the quotations and
      duplicate invoices, we believe the documents were generated by two
      employees who were friends of I '                 Included were eleven instances where
      documents for a single repair were submitted as many as three times. We also noted
      there was no reference on the supporting receipts to indicate who received the items
      purchased or their intended use.
                    -
AUDIT REPORT CENTER FOR EDUCATION                                                         Page 3

       The Accounts Payable department reviews each transmittal for authenticity and
       mathematical accuracy. They also review to ensure the authorization on the petty cash
       replenishment is in accordance with the signature card. The altered invoices should have
       been detected at this point. Also, the large disbursement of funds on each transmittal
       should have raised questions, particularly when submitted in petty cash replenishment
       transmittal multiples of two or more.

       Although each individual transmittal was within            signature card authorization,
       the combined amount requested in a single day was, in several instances, in excess of
                    authorization. In the period from November 1 to December 7, 1995, there
       were six instances where the multiple submissions of petty cash transmittals at one time
       exceeded the signature authorization. The Cashier's Office should have also questioned
       the combined amount of petty cash disbursements since the replenishment exceeded total
       petty cash available in the :              Laboratory of $200.

       We reviewed 71 petty cash reple@shmenttransmittals.                approved 40 and.
       7   .
                  approved 20. The remainder were approved by other authorized individuals.
       Of the 40 transmittals approved by           I            \ (seePage4, 2.C),afiiend
       of            and not a      employee, received the cash in 12 bstances. The Cashier's
       Office currently does not require   employees to provide identification when receiving
       petty cash funds.

       In addition, - . - -- advised Internal Audit on December 11, 1995 she had not
       properly accounted for a $114.00 reimbursement she received from an              teacher.
       Since the transaction was not recorded in petty cash, the amount is included as a part of
       the embezzlement.

RECOMMENDATION

Petty cash policies and procedures have not been examined and updated for a number of years.
The Controller's Office in conjunction with the Internal Audit Department should undertake such
a review. At a minimum, the following issues should be considered during this process:
       1. What function should the petty cash funds serve in the University expenditure activity?

       2. What dollar limit should be set on hdividual transactions paid from petty cash?

       '3. What level of petty cash should various departments have, given both the cost of
       processing small transactions and the risks involved in having cash on hand?

       4. What additional controls should be instituted over petty cash custodians, such as
       requiring a supervisory signature for replenishment of the fund?
                     -
AUDIT REPORT CENTER FOR EDUCATION                                                           Page 4

        5. What identification or evidence of       employment should be required of the person
        receiving the funds?

        6. What management reports should be provided to department heads on usage of petty
        cash funds?

       7. What review process should take p l k and by whom?

       8. What additional review procedures should be instituted within departments holding
       petty cash funds (e.g. surprise cash counts)?

MANAGEMENT RESPONSE

Management agrees that petty cash policies and procedures should be reviewed and updated.
At this point, many departments have no petty cash funds or have very inadequate funds, yet use
cash for small purchases and request reimbursement via pet@ cash voucher. This makes it
difficult to determine when reimbursement requests become excessive. Also, allowing the same
person to control petty cash and sign reimbursement requests does not provide adequate control
over these disbursements.                                              . .


Some procedural changes related to petty cash are included in the proposed revision to the            ..
purchasing policy and procedures. We would like to implement these changes as soon as
                                                                                                      .'


possible, while proceeding with a more comprehensive review and revision of the petty cash
function. The Controller has already received information fiom several other universities
concerning the operation of petty cash on their campuses.

Depending on the length of the review process, this review should be completed and new
procedures in place no later that September 30,1996.

2. CHECK REQUESTS

           had the authority to issue check requests for amounts up to $1,000. Check requests
issued by and payable to     .. --     require the authorization of         - - -___ - ,the Project
Director and             ; superior. The following check requests were considered fraudulent:




       Four check requests totaling $1,725.45 were initiated by and paid to                     and
       approved by                  -. Included   as support  for these  four check   requests were
       copies of a credit card statement and altered or duplicate blue receipts totaling $1,725.45.
       The check requests were dated from June 14, 1995 to October 27, 1995 as follows:
    AUDIT REPORT - CENTER FOR EDUCATION                                                    Page 5

        1. A check request dated July 11, 1995 for $682.05 was supported by a copy of a credit
        card statement from                , There were no receipts supporting the credit card
        statement amounts. We determined the individual charges were previously reimbursed
        from original i             invoices.

        2. A check request dated July 25, 1995 had an original supporting receipt from
               for $161.29 showing ,.---       ,'s home address. The computer equipment
        purchased was not for use in the.            -: Laboratory per              's review.

        3. On October 4, 1995, a check request was issued using an altered blue copy of the very
        same receipt as noted in item 2 above for $161.29 as support.

        4. A check request was issued on October 27, 1995 for $720.82 using altered blue
        receipts as support.



                            is a friend of            md was an employee of                    Six
        check requests totaling $2,662.08  dated between July 5,1994  a n d . w b e r 27,1995 were
        issued and approved by
                                    - -
                                               and paid to '                . The total of check
        requests paid to -                       with blue altered receipts as support and for       ,
        equipment that could not be located at the laboratory is $2,513.11 as shown below:

        1. A check request dated October 27, 1995 for $780.26 was supported by altered blue
        receipts from

        2. Five check requests totaling $1,88 1.82 were supported by original receipts from
               .and              ,. L - .
                                        .   .   . . could only locate cables valued at $148.95 in
        eq;ipment purchased during her review.

r
        All of the checks issued to                     were endorsed and made payable to




                     : is a friend of .,., --_ and was an employee of                r. Five
        check requests were issued and approved by               and paid to         totaling
        $3,3 17.62. The check requests were dated from September 25, 1995 to November 7,
        1995. Two of these checks totaling $1,635.36 were endorsed      by           to -
             . The support was altered blue receipts from - - -                           was
        established as a new vendor in the University's accounts payable system on September
        30, 1995 based solely upon the information contained on the check request. Accounts
        Payable did not obtain additional vendor information to determine his status as an
        independent contractor at the time of vendor activation.
                          -
    AUDIT REPORT CENTER FOR EDUCATION                                                          Page 6



                         is the mother of             and a former     employee in the President's
           Office. A check request issued &d approved by . -.-,          and paid to
           dated October 27, 1995 for $985.01 was supported by an altered blue receipt from
                  ,. Another check request payable to                dated October 16, 1995 for
           $29 1.19 was supported by an original receipt from , ;          and was for equipment
           not for use in the            - .  Lab Per               s review. The total of check
           requests paid to .             is $1,276.20.



                              is the father of       -       *.
                                                             A check request payable to
           was issued and approved by            -       dated September 5, 1995 for $799.00 supported
           by an original
                   - - -. -
                            receipt from                 .  The equipment purchased was not for use in
           the- -                Laboratory per                    s review.
    F.      -         -
                                                                               .
                                                                                      --_
                                                                                   .

           A check request dated February 22, 1995 for $899.55 was authorized by                    .
           The support for the check request was a quote addmsed to "                  ".
                                                                               The quote was
           prepared by                  1, a friend of        who worked at               at
           the time. Accounts Payable processed the check request without questioning the
           supporting document.

    RECOMMENDATION
I
i

    1. The departmental person approving a check request should ensure that original receipts are
    attached and that the purchase is appropriate for the account being charged.

    2. Accounts Payable should not pay check requests submitted without original supporting
    receipts. Quotations, invoice copies and credit card statements are not adequate documentation.

    3. Accounts Payable should ensure the supporting invoice contains the date, reference number
    and customer name. The absence of these items should cause questions to be raised about the
    document's authenticity and accuracy.

    4. Accounts Payable should enforce the applicable portions of the Purchasing Policy. A
    purchase order is required to purchase goods costing more than $500. Check requests should
    not be used to circumvent the Purchasing Policy. The Controller's Office in conjunction with
    Internal Audit should determine a ppedure to restrict the use of check requests in payment of
    purchases. The Purchasing Policy as it pertains to new vendor activation should also be
    followed. The "New Vendor Request" form should be developed immediately, and departments
    should be required to complete the form before a new vendor is activated in the file.
                      -
AUDIT REPORT ClilWER FOR EDUCATION                                                       Page 7
MANAGEMENT RESPONSE

Management agrees with these recommendations. Current Acoounts Payable procedures require
original receipts as supporting documentation. A training session will be held to emphasize this
point, as well as to reinforce what information must be provided on the receipt. In addition, the
Accounts Payable Manager has requested that Internal Audit give a training session on how to
recognize fraudulent or altered documents. In this case, the alteration used was simple but
effective. Although immediately obvious to the trained eye of the Director of Internal Audit,
several experienced individuals reviewed the altered documents at various times in the normal
course of their activities without spotting the problem.

Accounts Payable will begin to request written explanations of check requests which reimburse
for the purchase of goods costing more that $500. The Accounts Payable Manager will review
the explanation and supporting documentation before the check is issued. Frequent exceptions
from the same requestor or aiea will be reported to the department chair or head.

The Controller's Office and the Acting Purchasing Manager will develop the "New Vendor
Request" form. Once made available to campus, Accounts Payable will require that this form
be completed before adding a new vendor to the vendor file. As..an additional control,
responsibility for mainknanc+ of the vendor file will be shifted to kurchasing when that
operation is staffed to perform this function.

These changes will be in place no later than June 30, 1996.
3. PURCHASE ORDERS

We reviewed purchase orders, vendor invoices and receiving reports. We noted the following
fraudulent transactions and equipment purchases that could not be located at the lab:



       A purchase order dated October 12, 1995 for a home stereo priced at $900.00 was
       authorized by                        admit&d the stereo should'nothave been purchased
       through        .
                      The receiving report was sign.& by            , Another purchase order
       dated August 29, 1995 was for video cables for $255.77 and could not be located at the
         .-- - - - -.
                  .   Laboratory per                :'s review.
       The total of these personal purchases is $1,155.77.
AUDIT REPORT - CENTER FOR EDUCATION                                                 Page 8


    A purchase order dated November 7, 1995 for an ES 5000 Canon video camera in the
    amount of $1,775.00 less $1,000.00 cash paid or net $775.00 was authorized by I
          , This equipment could not be located at the :    ;           Laboratory. The
    receiving report was signed by            :. The vendor invoice was for $1,775.00 but
    Accounts Payable issued a check in this amount without matching to the $775.00
    purchase order. At Internal Audit request, Accounts Payable contacted the
    vendor, voided the check and reissued a check for the proper amount.

    The total of this personal purchase is $775.00.



    Consecutive numbered Purchase Orders 27201, 27202 and 27203 dated November 1,
    1995, were issued and authorized by .             .. The description of the equipment
    purchased was "Memory". Them was no additional information shown on the purchase
    order. The vendor issued three consecutive invoices totaling $3,150.00 all dated
    November 1,1995 that              signed as receiving the equipgent. Our investigation
    determind the equipment purchased was a video component for a computer for
    $1,950.00 and a 16M computer chip for $600.00. The vendor told us the customer .
    wished to be billed in this manner. The consecutive purchase orders were obviously .
    issued to circumvent the signature authority of         --- The receiving report was
    signed by                             's review determined that this equipment was not
    at the              :Laboratory.

    Three additional purchase orders totaling $2,634.00 and dated from August 1995 to
    November 1995 were issued and approved by            , The receiving reports were
    si@ by ;            -The equipment acquired on these purchase orders could not be
    located .during by           :'s inventory at the            :Laboratory.

    The total of purchase orders issued and paid for this missing equipment is $5,184.00.



    Six purchase orders dated from September 5, 1995 to December 6, 1995 were issued and
    approved by            for a total of $3,928.99. The receiving reports were signed by
              -. except for the last three which had not been processed prior to her
    resignation.               . reviewed each purchase order and invoice and determined     ,

    the equipment purchased was not in the laboratory.
                     -
AUDIT REPORT CENTER FOR EDUCATION                                                          Page 9



        Nine purchase orders and three invoices (two over $500 which should have had a
        purchase order) totaling $12,165.48 dated from May 31, 1995 to November 27, 1995
        were issued and approved, seven by              , three by       : and two by          '


                    The receiving reports were signed primarily by
        later reviewed each purchase order and invoice and determined that none of the
        equipment purchased could be used in the laboratory.

F. Other Vendors
       Payment was made to other vendors for $203.00 for purchases approved by
                       later determined the purchases were for equipment that could not be used
       in the laboratory and were not found during inventory.

RECOMMENDATION

1. The individual in the department who authorizes a purchase order should know what is being
purchased and the appropriateness of the purchase.                    .. ..




2. The receiving function is a critical part of the putchasiig process. Proper segregation of        ..
duties is a crucial part of the internal control system. An individual independent of the            "




purchasing function must determine that the items received agree with the items ordered. The
purchase order should contain sufficient detail to enable verification of the purchase.

3. Accounts payable. should match invoices with purchase orders and pay only the amount
authorized (See          putchase commented upon on previous page).

4. Accounts payable should enforce the applicable portions of the Purchasing Policy. Invoices
over $500 require a purchase order. Invoices of $500 or more should be returned to the
department for preparation of the proper form.

MANAGEMENT RESPONSE
Accounts Payable made a clerical error in approving a payment to                      of $1,775.
Normally, documents are matched and differences questioned. Also, the invoice itself was
confusing and should have raised questions. This will also be addressed in the training session
mentioned in the earlier response. Althqugh requiring departments to complete a purchase order
before paying invoices over $500 will delay payment of some invoices, Accounts Payable will
begin enforcing this provision of the Purchasing Policy immediately. Note that it is unlikely that
forcing the department to prepare a purchase order for the two invoices over $500 would have
altered the outcome in this instance.
                        -
    AUDIT REPORT CENTER FOR EDUCATION                                                       Page 10
    4. BANNER REPORTS

    The monthly Banner financial expenditure reports for the               Foundation and National
    Science Foundation were forwarded to . . , for review and verification. As a result, there
    was no current review of the financial results by the Project Director, - _                   The
    reports clearly showed excessive expenditures for computer related items beginning in July,
    1995. The independent review of accounting reports by a knowledgeable individual is one of
    the basic controls on the activity of an organization. This lack of segregation of duties allowed
    the embezzlement to continue unabated until detected at the Cashier's Office.

    RECOMMENDATION

    The Project Director of the :              Laboratory should review the financial reports of the
    laboratory immediately upon receipt.
                                                                                                   -.
    A high level review of the statements for reasonableness should be performed by
    or

    MANAGEMENT RESPONSE

    The management of the                   Laboratory agrees with the recommendations.

    5. ATTACHMENTS

    Attachment A provides a summary by granting agency of the $58,119.47 embezzled by I ,
             The amounts are $53,416.25 charged to the        Foundation and $4,703.22 charged
    to the National Science Foundation (NSF). An additional $1,363.93 in overhead for off campus
    facilities was charged to the NSF.

'   Attachment B provides a detail of the embezzlement by individual namdvendor and type of
    payment.

    RECOMMENDATION

    The granting agencies should be notified of the general circumstances surrounding the
    embezzlement.

    This matter should be forwarded to the University's General Counsel and the Campus Police
    Department for further review and tothe*RiskManager for filing of an insurance claim.
     AUDIT REPORT - CENTER FOR EDUCATION
i
                                                                                            Page 11
!I
     MANAGEMENT RESPONSE
I


     The granting agencies will be notified after the frnal report is issued. The matter was referred
I
     to the General Counsel's Office and Campus Police. Representatives from these offices met
                                       County District Attorney on January 3 1, 1996 to discuss the
I

I    with representatives of the
I
     matters and the District Attorney's Office has agreed to investigate the matter.
i
ATTACHMENT A


                                   Center for ~ d k a t i o n
                                   Loss on Submission of invalid receipts




                                                     Charged to         Charged to
                                                          Fdn.          NSF Grant       Total Charges

Recap of Losses



          Submitted complete originals
             items not considered valid                   2,818.54                            2,818.54
          Submitted cut off altered originals               205.25             139.73           344.98
          Submitted cut off altered blue copies          23,514.85           4,160.45        27,675.30
          Submitted on Xerox of statement                   379.00             303.05           682.05

                                                          3,928.99                            3,928.99
                                                          1,155.77                            1,155.77
                                                          5,184.00                            5,184.00
     ..                                                  13,718.31                           13,718.31
                                                          1,674.00                            1,674.00
-  ter Vendors (xerox of stmnt. 81charge card)              723.54             99.99            823.53
I-eacher pmt. not recorded in petty cash                    114.00                             '114.00 '.
          Total Embezzlement                             53,416.25          4,703.22         58,119.47

          Overhead on invalid NSF charges                                    1,363.93         1,363.93

          Total Loss                                     !iu%i25            S-967.15         59.483.4n
    .   *-*   w



I
                                I
                  ATTACHMENT 6


                                               Center for ducat ion
                                               Recap of Losses



                  Petty Cash

                  Teacher Reimbursement

                  Check Requests:




                  Purchase Orders:
                          .-.




                          Total Embezzlement

                  NSF Overhead

                               Total Loss
